Supreme Court, U.S.
FILED

AUG 1 8 2020
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER
(Your Name)
vs.
alA/KOA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

C+k C\Irf.lut

Ce^ri

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

h. H.'H
(Your Name)

(Address)

AjtcAl^akj

(City, State,/^ip^Code)

r'T', r' PcP n n n r.~
k:

}

I (Phone Number)

L; ~\

\^i d'.i

*: :;irn
H v4j

l_4

l.J

U.I

-i

received
OCT 19 2020
[ 9f$£-AWc85&'M.

QUESTIONS PRESENTED
In 2012 this Count ruled in Miller v. Alabama 567 U.S. that it is Unconstitutional
to sentence a juvenile to life without the possibility of parole. In 2012 the state
of Michigan did not agree that those who were juveniles pre-Miller should be given
relied under Miller therefore decided not to uphold this Court decision. In 2016
this Court again revisited Miller decision in Montgomery v. Louisiana 136 S.Ct 718
where it made Miller retroactive to those who were juvenile’s at the time of their
offenses.
The question presented is whether a juvenile filing for his relief on January
23, 2016 is entitled to the 1 year statute of limitation and equitable tolling under
Montgomery v. Louisiana and though he was prevented by the state of Michigan.
Petitioner believes that he should be granted a Miller Hearing as he was under the
exclusive jurisdiction of the juvenile court. (See Pet. APP. T )

*

I

QUESTION PRESENTED
In 1993 Petitionee was 16 years old and committed to the juvenile court until
hi's 21 birthday foe some juvenile enumeeated offenses. (See Pet. APP. H ) in 1995
Petitionee was 19 yeaes of age and still a juvenile undee the Historical Laws and
Statutes of 1995 MCL 712A.2 (See Pet. APP. $ ) On Novembee 24, 1995 Petitionee was
bound ovee feom 36th dlstelct couet without a juvenile walvee being Issued. (See
Pet. APP. A ) On December 4, 1995 Petitionee counselor waived Petitioner's juvenile
dispositional hearing which acted as an adult Preliminary Hearing foe the juvenile.
The question presented is whether a juvenile under the exclusive jurisdiction
at the tike of his offense should be entitled to a Miller Hearing under both Miller
v. Alabama and Montgomery v. Louisiana. This Petitioner's 6th, 8th, and 14th
Amendment of the United States Constitution has been violated as this Court has
the ability to correct where injustice of the CONSTITUTION is not being upheld.

t f

n

QUESTIONS PRESENTED
In 1995 this Petitioner was a juvenile under the exclusive jurisdiction of the
juvenile court. Counsel was ineffective by waiving Petitioner as a juvenile into
general court for a homicide and an attempted homicide. Petitioner was under the
exclusive jurisdiction of the juvenile court after being committed at the age of
16 in 1993 for some enumerated crimes. After being committed Petitioner was kept
under the child protection order and fell under the law of Michigan Court Rules
6.900 as stated: Rules Applicable To Juveniles Charged with Life Offenses Subject
To The Jurisdiction Of District, Circuit And Recorder's Court, Petitioner was
entitled to a mandatory juvenile hearing to determine whether he should be sentenced
as a juvenile or an adult. Yet, Petitioner attorney was ineffective for waiving
this vital hearing. Petitioner was later convicted of these offenses and now is
serving an unconstitutional sentence to life without the possibility of parole.
Since the tine of both Miller and Montgomery Petitioner is now serving an Cruel
and Unusual Punishment. Petitioner now seek justice from this Court by not allowing
a constitutional issue to be denied. By counsel waiving Petitioner juvenile hearing
this prevented Petitioner ability to allocate witness, or being waiver on lesser
included offense, also Petitioner could have remained in juvenile court.
The question presented is whether a juvenile's mandatory life without parole
sentence is invalid and may be challenged now because the ineffective assistance
of trial counsel waived Petitioner juvenile dispositional hearing MCL 712A.4(4);
whereas the best interest is for the juvenile. Counsel's duty was to protect and
properly inform and instruct the juvenile. This process would also had preserved
Petitioner jurisdiction issue, where Petitioner was under the child protection order
MCR 6.900 before he was bound over improperly as an adult (See Pet. APP. A ).
Petitioner juvenile judge and legal guardian should have been notified. It took
seventeen days later before juvenile judge was notified of Petitioner’s arrest.
(See Pet. APP. A )Clearly this was not only ineffective assistance of counsel see.
Strickland v. Washington 466 U.S. 668 but a miscarriage of justice took place.
Petitioner 6th and 14th Amendment has been violated.

> sv

\% t

INDEX OP AUTHORITIES

Cases
Allen v. Stovall 156 F. Supp. 2d 791 "• li)
Armstrong 575 US at 135 S.Ct. 1378 r- (0
Bender? v. Williamsport Arrea Sch Dist. 475 US 534 ^ 1
Brady v. Mar?yland 373 US 83 °[
Carp v. Michigan 136 S.Ct. 1355 ~[0
Cruz v. United States, 2018 US. Dist. Lexis 52924^ ^^
Cruz v. United State of America (transcripts with Dr. Laurence) - kl_
Davis v. Michigan 136 S.Ct. 1356 “* \ y J C)
Dobb v. United States 545 US 353 ~ \ • C>
Giglo v. United States 405 U.S. 1
_l
Hill v. Bauman, 2020 U.S. App. Lexis 16417
Hill v. Rewerts 2020 U.S. Dist. Lexis 7440 ^ I
Holland 130 S.Ct. at 2562 - 1
Holland v. Florida 560 U.S. 631 " V
In re Lambert 2018 U.S. App. Lexis 25332 " li.
Kyles V. Whitley 514 U.S 419 - °\
Malvo v. Mathen 259 F. Supp. 3rd 321 ~ I0
Miller v. Alabama 567 US 649 ~7y M/11/10-/'3/1*
Miller-El v. Cockrell 537 US 322 ~~ i
NRA of Am v. Bureau of Alcohol 700 F. 3d 185“ ^
Osborn v. Bank of United States 22 US 738 ~ I 0
Pace v. DiGuglielrao 544 U.S. 408 'H
People v. Dunbar 423 Mich 380
People v. Eliason 300 Mich App. Lexis 609 -10
People v. Effinger 212 Mich App 67 ~xl
People v. Fike 228 Mich App. 178 ~ xl
People v. Hill 459 Mich 933
I
I
People v. Hill 503 Mich. 887
People v. Hill 1998 Mich App. Lexis 1286 - I
~ t
People v. Hill 1998 Mich Lexis 3445
People v. House 2015 IL App. 1st 11058 tV
People v. Jordan 275 Mich. App. 659 - xl
People v. Pratt 254 Mich. App. 425 - •'Ll
1
People v. Riley 468 Mich 135

=7, ? to/it/t%in

9

IV

Cases
People v. Schumacher? 75 Mich App. 505 ^ 'IS)
People v. Williams, 291 IL App. 3rd 1125
Rhines 544 O.S. 277
Richardson v. United States 526 U.S. 813'
Strickland v. Washington 466 U.S. 668
The Legal Constrruction of Adolescence 29 Hofstra L. Rev. 547 *'
ib
Towns v. U.S. 190 F.3d 468
U.S. v. Cotton 535 U.S. 62 ~ I 9
Virrgin Islands v. Williams 892 F.2d 305 ~ l\
37 Miss. C.L. Rev. 264-j 755 U. Cin. L. Rev. 943 -'H
68 Temp. L. Rev. 1897 - \ru
82 J Crim, L. & Criminology 360 - * 'L~
85 Fordham L. Rev. 641 l '2-.
88 Temp. L. Rev. 769 “
91 Nw. U.L. Rev. 453 " ^

-/r

Statutes
23 U.S.C. sec. 158
28 U.S.C. sec. 2253(c)(2)
28 U.S.C. sec. 2244
MCL’s 712A.*1 - 712A.32
MCL 769.1
MCL 803.222 - 803.225
MCL 803.301 - 803.309
MCL 780.901
MCR 5.950
MCR 6.900 -6.937
MCL 600.606
MCL 600.1011
MCL 600.1019

J3«-

&

CONCLUSION
APPENDIX A: Case Status
APPENDIX B: Investigation Repact
APPENDIX C: Opinion & Ocdec Denying Motion Foe Relief fcom Judgment (4/5/17)
APPENDIX D: Ocdec Denying Motion foe Reconsidecation (4/21/17)
APPENDIX E: Cciminal Defense Lettec (Dec/1988
APPENDIX F: Cciminal defense lettec (Aug/2017
APPENDIX G: Cciminal Defense lettec (Jan-Fab/2016)
APPENDIX H: Pcesentence Investigation cepoct
APPENDIX I: Michigan State Univeesity, U of Michigan, Faic Sentencing of Youth,
Juvenile Law Centec lettecs.
APPENDIX J: Sentencing Tcansccipt (Judge Helen E. Bcown),
A. Robecson)

(Juvenile Judge Dalton

APPENDIX K: 1993 Registcy of Actions, Joucnal of the Juvenile Recocdecs Couct
APPENDIX L: 1995 Registcy of Actions
APPENDIX M: Affidavit Dismissing Appeals (5/22/1997)
APPENDIX N: Juvenile Pcobation Violation (10/21/1996)
APPENDIX O: Appeal Attorney May 5, 1997, Feb 12, 1997
APPENDIX
APPENDIX
APPENDIX
APPENDIX

P:
R:
S:
T;

What Do we Know About Bcain Development in Adolescence?
Leaving No Juvenile Behind
MCL 712A.2
MCL 712A.4

APPENDIX U: MCL 712A.5
APPENDIX V: MCL 712A.6
APPENDIX W: MCL 712A.9
APPENDIX X: MCL 712A.10
APPENDIX Y: MCL 712A.16
APPENDIX Z: MCL 712A.17d
APPENDIX AA: MCL 712A.18C
APPENDIX BB: MCL 712A.18d
APPENDIX CC: MCL 712A.181
APPENDIX DD: MCL 600.606
APPENDIX EE: MCL 6001011
APPENDIX FF: 600.1019
APPENDIX GG: MCL 780.901

APPENDIX HH: MCL 803.222 - 803.225

an

APPENDIX II: MCL 803.301 - 803.309
APPENDIX JJ: MCL 769.1
APPCfiJT)IV. Kk' M.lh',

N--Cc>jj-eL_q£ fippet.Js’ xf^Jer- (fcb -H Ifflj

ttP.wm iu.
A/VfcMix m/1*.

S’upt-e/^t. .CooPf (bee*

QPPBAQIX. Nti',

—

Cov^f <rf Appear (/Va,/-. £3

MPENm 00',

Caur=±_(6c±..U %Ol^)

flPPtm*fP- Otcfer-

mmm

I Ay Kejpo^vx- A/e^Jly //*y

jy«kr D^r}c4 OoH OrAtr Cr^Uf. P*M' ff-A__

WmiUfL- V. $.. DtrPrlJ (e„^ AJe+\ce

£/ecfr<3/*i'c

P‘lia_j. (~Jus^> ^ >2-^ f)

AP/^A/fllfiC $5: £/• r. D.s-tk-loP CouFi AJ0A'\e.€ £rf
•

•

? ^

flpp^DKfr.' ^.r. DCsir ici Cc»rt M<ce>
PtPtAPpP- UU; A4~^e 6-

A /iVj. ^ ^i/, /?

/*>*j>£ujk 5~ //k-faridl^ (AJo\),

MPtWlX, VV;^ fA0±\4^Atv hW^ss

16 l<i)

(/UoU> 13 . XO(1 j

pppmix W: _ (5,U)da AvJ OrAer (\) s y/w/w-^1 l\J
Xkk I.L_20ZQ
/

flfptmx.jtci. T^4 3^
Appmix if Ct^-fJ-Tc
AttMlft*- Z2-*'

a-f ierVi'c^_

{/m-f'-ed $4-cAes

&1/V IP X0VoJ

Covr^

flPfr/O/0»X AAA(/Al^ T4^<?-r erP /\

1'^XOLOj

e» 1/ C'd’qK. 3d, XOLo)

:££

Question Present i-iif
Index of Authorities iv—v
APPENDIX VI-VII
Petitionee Foe Writ of Certiorari 1
Jurisdiction 2
Constitution and Statutoey Provision Involved 3-5
Statement of Facts 6
Summaey of Aegument 7
Argument I.
D-^d the state of Michigan violate Petitionee’s constitutional eight by peeventing
him feom filing claim undee Millee v. Alaha,a in 2012 whereas it's ceuel and unusal
punishment to sentence a juvenile to life without the possibility of paeole.
I. The Petitionee sentence is Unconstitutional and violates his 8th Amendment "Cruel
and Unusual Punishment"... 13
II. Petitionee is entitled to equitable tolling.. • • 8
III. Petitionee’s constitution, 6th,8th, 14th Amendment eights have been violated... 10
Summaey of Aegument...12
Aegument II...13
Petitionee is entitled to a Millee hearing because Petitionee was a "juvenile" at
the time of his offense, he is serving life without the possibility of paeole which
is an Unconstitutional sentence undee the 8th Amendment entitling him to relief
required in both Mfler v. Alabama and Montgomery v. Louisiana...13
A. New Scientific Evidence supporting the development of the juveniles brain and. • • 13
function until age 21 years old....... 13
Summaey of Aegument.. .17
Aegument III... 18
A. Jurisdiction...18
B. Relevant Facts and legal Analysis... 19
C. Ineffective assistance of trial counsel....21
D. Ineffective Assistance of Appellate Counsel..
21
Petition Foe Writ of Ceetioeaei
Proof of Service
Attached APPENDIX'S

PETITION FOR WRIT OF CERTIORARI
Petitioner Jermaine D. Hi'll respectfully submits this petition for a writ of
certiorari’.
OPINIONS BELOW
The opinion of the Wayne County Circuit Court denying Petitioner's post-conviction
motion for relief from judgment and reconsideration. (See Pet. APP. C ) Petitionee
has been.filing for appeals throughout his stay in prison; People v. Hill 1998 Mich
App. Lexis 1286 (April 3, 1998), People v. Hill 459 Mich 933 1998 Mich Lexis 3445
(Dec. 30, 1998), People v. Hill, 2018 Mich App. Lexis 859 (March 23, 2018) People
v. Hill 503 Mich. 887 (Oct. 30, 2018), Hill v. Rewerts, 2020 U.S. Dist. Lexis 7440
(Jan. 16, 2020), Hill v. Bauman, 2020 U.S. App. Lexis 16417 (May 21 , 2020).
In all of the above opinions Petitioner received denials.

1

JURISDICTION
The Michigan counts (Appeals and Supreme) has den-fed Petitioner's appeals, April
3, 1998, December 30, 1998, April 5, & 21 2017, March 23, 2018, October 30, 2018
and Eastern District and 6th Circuit Appeals Jan. 16, 2020, May 21, 2020. This Court
has jurisdiction under 28 U.S.C. sec. 1257(a).

1

OONSmWTION AND

statutory provisions involved

Amendment VI [ 1791 ]
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in
his favor, and to have the Assistance of Counsel for his defense.
Amendment VIII [1791]
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.
Amendment XIV [1868]
All persons born or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the State wherein
they reside. No State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within jurisdiction the equal protection of the laws.
The Historical Laws And Statues
of 1995; MCL 712A.2a (3)
Continuing jurisdiction beyond maximum age; definitions.
(3) As used in this chapter, "child", "minor" or any other term signifying a
person under the age of 18 applies to a person 18 years of age or older concerning
whom proceedings are commenced in the juvenile division of the probate court pursuant
to section 2 of this chapter and over whom the juvenile division has continuing
jurisdiction pursuant to subsection (1).
The Historical Laws And Statutes
of 1995 M2L 712A.4(4)
Waiver of jurisdiction when child of 14 or older accused of felony.

a

(4) Upon a showing of probable cause under subsection (3), the court shall conduct
a hearing to determine if the best Interests of the juvenile and the public would
be served by granting a waiver of jurisdiction to the court of general criminal
jurisdiction. In making its determination, the court shall consider all of the
following criteria, giving greater weight to the seriousness of the alleged offense
and the juvenile's prior record of delinquency than to the other criteria:
The historical Laws And Statutes
of 1995: MCL 712A.6
Jurisdiction; adults.
The court has jurisdiction over adults as provided in this chapter and as provided
in chapter 10A and chapter 10C of the revised judicature act of 1961, 1961 PA 236,
MCL 600.1060 to 600.1082 and 600.1099b to 600.1099m, and may make orders affecting
adults as in the opinion of the court are necessary for the physical, mental, or
moral well-being of a particular juvenile or juveniles under its jurisdiction.
However, those orders must be incidental to the jurisdiction of the court over the
juvenile or juveniles.
under its jurisdiction.
MCL § 803.222
(C) "Juvenile” means a person within the jurisdiction of the family division
of the circuit court under section 2(a) of chapter XIIA of 1939 PA 288, MCL 712A.2,
or within the jurisdiction of the circuit court under section 606 of the circuit
court, or an institution operated as an agency of the county or the family division
of circuit court, or an institution or agency described in the youth rehabilitation
services act, 1974 PA 150, MCL 803.301 to 803.309, to which a juvenile has been
committed under section 18(1 > (e) of chapter XIIA of 1939 PA 288, MCL 712A.18, or
under section 27a of chapter IV or section 1 of chapter IX of the code of criminal
procedure, 1927 PA 175, MCL 764.27 and 769.1
MX 803.225. Commitment report; petition to conduct review hearing; combining annual
report with review hearing.
(2) If the department or county juvenile agency, as applicable, believe that the
juvenile has been rehabilitated and does not present a serious risk to public safety,
T"5

4

the department or county juvenile agency may petition the court to conduct a review
hearing at any time before the juvenile becomes 19 years of age or, if the continuing
court has continuing jurisdiction over the juvenile, at any tine before the juvenile
becomes 21 years of age.

5

STATEMENT OP PACTS
That on March 29, 1993, Petitioner was 16 years old when he was apprehended for
some arm robberies that took place March 25, 1993; he was sent to the Wayne County
Youth Home. (See. Pet. APP.k ) That on April 2, 1993 Petitioner had a preliminary
hearing. On June 6, 1993 Petitioner was committed by Dalton A. Roberson as a juvenile
until his 21st birthday under the Department of Social Services. (See. Pet. APP.
H ) That on February 6, 1995 Petitioner was before the Hon. Dalton A. Roberson for
a release hearing. That on February 7, 1995 Petitioner was placed on supervised
independent living until his 21st birthday under Spectrum Hunan Services. (See.
Pet. APP.//) From February 7, 1995 to November 20, 1995 Petitioner was mandated
to report to the DSS program on Dexter and Elmhurst in Detroit, Michigan; which
consisted of schooling or job hunting. As well as on a tracking system where he
had to sign three tines a day with a tracking officer of juvenile court.
That on November 20, 1995 Petitioner was apprehended for 1st degree homicide,
attempted homicide, robbery and felony fire arm. That on November 22, 1995 prosecutor
filed for warrant. (See Pet. APP. A, B) That on November 24, 1995 Petitioner was
arraigned on warrant by judge Jackson. That on December 4, 1995 Petitioner was taken
in front of judge Waterstone. That on December 6, 1995 Petitioner juvenile judge
was final notified and he was taken in front of juvenile judge Dalton A. Roberson
for a juvenile waiver hearing.
That on January 26, 1996 Petitioner was taken in front of judge Helen E. Brown
for Final-Co. That on October 1 , 1996 Petitioner began jury trial in front of judge
Helen Brown.
That on October 18, 1996 Petitioner was sentence to life without the possibility
of parole and 25 to life for a homicide and attempted homicide. That on October
31, 1996 Petitioner was found in violation of his juvenile probation and was
resentence for (3) arm robberies that he committed in 1993. (see Pet. APP. Tt //)

6

SUMMARY OP ARGUMENT
"THIS IS A CASK OP FIRST IMPRESSION". The stab® of Michigan did not afford
Petitioner a Miller: Hearing under Miller v. Alabama and Montgomery v. Louisiana.
Petitioner t* serving a life sentence without the possibility of parole and ha was
a juvenile at the tine of his offense. (See Pat. APP. «,$) In 1993 Petitioner was
16 years old and was cooraitted to the juvenile court for soma juvenile offense(s)
until his 21st birthday. (See Pat, APP.^M) In 1995 Petitioner was placed on
juvenile probation under the Youthful Training Act (See. Pet* APP3^K) On November
20 th 1995 Petitioner was 19 years of age and was apprehended for a homicide and
a attempted homicide, while still under the exclusive jurisdiction of the juvenile
court. Petitioner was bounded over as an adult but once realized that Petitioner
was still a juvenile under the exclusive jurisdiction of the juvenile court. (See
Pet* APP. k ) Petitioner was taken back in front of his juvenile judge Dalton A.
Roberson (See Pet. APP* A) to request a waiver of Pstitionar to be tried in general
court wider the Historical Statutes and Laws of 1995* M2L 712A.4 (4)
Petitioner counsel was ineffective for waiving this juvenile hearing that acted
as the juvenile preliminary hearing as an adult. This also prevented Petitioner
from preserving his jurisdiational claim, having the ability to allocate any
witnesses, and prevented Petitioner from being waived on lesser included offense(s).
In 2012 this Court has ruled that it is against the 8th Amendment to sentence
a juvenile at the tine of his/her offense to life without the possibility of parole
without first, being given a Miller Hsarihg. In 2012 the state of Michigan disagreed
with Miller v. Alabama applied to those juvenile's at the ties of pre-Miller. (See
Pet. APP <51 Therefore, they deemed all claims to be frivolous. Petitioner was clearly
a juvenile at the tine of his offense in 1995 (See Pet. APP, HH) and he should had
been entitled to a Miller Hearing. In 2016 this Court ruled in Montgomery v.
Louisiana that Miller was retroactive to those juvenile's pre-Miller. Petitioner
then filed a Motion For Relief From Judgment seeking relief*
New scientific evidence has shown what society didn't know or understand upon
the tine of Petitioners sentence and that is the development of the juvenile brains.
In 1990 George H.W. Bush launched the "Decade of the Brain" initiative to "enhance
public awareness of benefits to bs derived from the brain resaardi." (Project on
the Decade of the Brain, Library of Congress) This is a legal question that has
to be addressed amongst the lower courts. Whether those under the jurisdiction of
the juvenile court should bs afforded a Miller Hearing • ••

7

ARGOHENT
I. Did the State of Michigan violate Petitioner's Constitutional right by pneveatibg
l»ik from filing claik under Miller v. Alabama ik 2012 whereas it's cruel and
punishment to sentence a juvenile to life without the possibility of parole.
*rais IS A CASE OP FIRST IMPRESSION" In 1993 Petitioner was 16 years old and
was committed to the juvenile court until his 21st birthday for some juvenile
offense(s). In 1995 Petitioner was 19 years old and still under the exclusive
jurisdiction of the juvenile court until his 21st birthday when he oomuitbed a
homicide and attempted homicide. Due to the fact that the juvenile court still had
exclusive jurisdiction over Petitioner he had to be given a juvenile waiver hearing
under the historical statutes and laws of 1995: MCL 712.2a, MCL 712A.4(4), 769.1
(3) in order to be tried in adult court.
Petitioner counsel was ineffective by waiving juvenile hearing. This process
acted as a preliminary hearing for the juvenile and should never be waived. This
also. prevented Petitioner from preserving his jurisdictional defect claim.
Petitioner was under the Historical Statute and Laws of 1995: MCL 803.222 - 803.225,
MCL 803.301 - 803.309, MCL 712A.1 - 712A.32, MCL 769.1 (See Pet. APP's JIyS )
In 2012 this Court ruled that it is unconstitutional to sentence a juvenile to
life without the possibility of parole without first being given a Miller Hearing.
Inside of the state of Michigan the prosecutor Kym Worthy and attorney ynorral Bill
Shuttee did not agree that in 2012 Miller v. Alabama 567 OS 649 should be retroactive
to those juveniles who were already in prison before 2012. (See Pet. APP F )and
therefore did not uphold Miller v. Alabama 567 OS 649 until January 25, 2016 in
Montgomery v. Louisiana 136 S.Ct 718 (See Pet. APP Jr) when this Court
ft
to be Retroactive for those juveniles who were already sentence before 2012 Miller.
II. Petitioner is entitled to equitable tolling.
28 U.S.C. sec. 2244(d)(1)(A): The statue provides for tolling of the limitations
period during the time in which "a properly filed application for state
post-conviction or other collateral review with respect to the pertinent judgment
or claim is pending" 28 O.S.C. sec. 2244(d)(2). And, under certain circumstances,
the AEDPA limitations period may be tolled. Holland v. Florida, 560 O.S. 631 "[A]
Petitioner is entitled to equitably tolling only if he shows (1) that he has been
pursing his rights diligently, which Petitioner has shown (See Pet. APP.r;R) and

>8

(2) that some extraordinary circumstance stood in his way and prevented timely
filing. ID. at 649 (quoting Pace v. DxGuglielrao, 544 U.S. 408, 418. Petitioner again
has shown that he has been pursuing his rights after this Court ruled in Miller
v. Alabama 567 OS 649.
A Habeas Corpus Petitioner is entitled to equitable tolling only if two requirements
are met. First, the Petitioner must establish "that he has been pursing his rights
diligently." Holland, 130 S.Ct. at 2562 And second, the Petitioner oust show "that
some extraordinary circumstance stood in his way and prevented timely filing.
Petitioner has not only shown this but establish this; he has been diligently pursing
this legal issue(s) and doing the best the he could do while working pro se.
Petitioner has written letters to attorneys, prosecutors, judges, Michigan Judicial
Committee(s), and other legal orgaizations. (See Pet. APP. Tt A )
28 U.S.C.S sec. 2253(C)(2) A certificate of appealability may issue under
paragraph (1) only if the Petitioner has made a substantial showing of the denial
of a constitutional right. Miller-El v. Cockrell, 537 O.S. 322.
Petitioner's due process of law was violate then he was bound over as an adult
and than seventeen days later was taken in front of his juvenile judge Dalton A.
Roberson (See Pet. APP. A ) Petitioner's 6th Amendment was also violated when his
counselor waived his juvenile dispositional hearing under the Historical Statutes
and Laws of 1995; MCL 712A.4(4) and also, prevented Petitioner from presenting his
jurisdictional claim.
Petitioner has been trying to obtain his juvenile file(s), transcripts, waiver
form and documents in order to show that he was a juvenile under the exclusive
jurisdiction of juvenile court at the time of his offense(s). (See Pet. APP. H )
Petitioner motioned to obtain transcripts and documents, this would have been
valuable in formation at the time because there was a list of names given to the
chief judge of their perspective county's of all defendants who were subjected to
the jurisdiction of that court and who must be sentence under Montgomery. (See Pet.
APP. F ) In Kyles v. Whitley 514 U.S. 419, Giglo v. United States 405 U.S. 1, and
Brady v. Maryland 373 U.S. 83; anytime evidence or letters, etc that is being
withheld it constitute as a violation of prosecutor's constitutional duty to disclose
material evidence favorable to the defense. Petitioner has exhausted his state and
federal remedies.
Unlike Dobb v. United States 545 U.S. 353, Petitioner was prevented by the State
of Michigan form filing under Miller v. Alabama 567 U.S. 640 in 2012. (See Davis

<?

v. Michigan 136 S.Ct. 1356, Carp v. Michigan 136 S.Ct 1355, People v. Eliason 300
Mich. App. lexis 609) It wasn't until 2016 Montgomery v. Louisiana 136 S.Ct. 718
when this Court made Miller retroactive. In Petitioners interpretation of Miller
at the time of 2012 his would be deemed frivolous see Allen v. Stovall 156 F. Supp.
2d 791 and through letters that Petitioner have written bo attorneys (See Pet. APP.
X) and reading legal news articles he was advised to wait upon the retroactivity
in Montgomery v. Louisiana. (See Pet. APP. X ) In Dobb's situation the state didn't
prevented him from filing his motion when the initial decision was made June 1,
1999 in Richardson v. united States 526 U.S. 813. On January 23, 2017 Petitioner
signed and dated his motion for relief from judgment (See Pet. APP. C ) and mailed
it via unit counselor Mr. Penn expedited legal mail form. (Mailbox rule Towns v.
U.S. 190 F. 3d 468)
III. Petitioner's Constitution, 6th, 8th, and 14th Amendment rights have beihg v>ot<^ei>
Petitioner was a juvenile under the exclusive jurisdiction of the juvenile court
and is currently serving life without the possibility of parole which is an
Unconstitutional sentence under the 8th Amendment for those who were or who are
juveniles. Jurists of reason would agree with Petitioner that he not only was a
juvenile at the time of his offenses but that Miller and Montgomery should be
extended to him. In Rhines 544 U.S. 277 A Petitioner must satisfy three requirements
to justify a stay. First, the Petitioner must present good cause for his or her
failure to exhaust secondly, the Petitioner must not be plainly meritless. Third,
there must be no indication that Petitioner engaged in intentionally dilatory
litigation tactics. (See Malvo v. Mathena 259 F. Supp. 3rd. 321.)
As stated in Montgomery "Unlike the rule the Court announces today, this
limitation at least reflects a constitutional principle. Only when state courts
have chosen to entertain a federal claim can the Supremacy Clause conceivable command
a state court to apply federal law. As we explained last term, private have no
"constitution...right to enforce federal laws against the States." Armstrong 575
U.S • 9 at 135 S.Ct. 1378. Instead, the Constitution leaves the initial choice to
entertain federal claims up to state courts, which are "tribunals over which the
government of the Union has no adequate control, and which may be closed to any
claim assert under a law of the United State". Osborn v. Bank of United States,
22 U.S. 738, Wheat. 738. States therefore have a modest path to lessen the burdens
that today's decision will inflict on their courts. States can stop entertaining
claims alleging that this Court's 8th Amendment decisions invalidated a sentence,

I0

and leave federal habeas courts to shoulder the burden of adjudicating such claim
In the first Instance wliabavar the desirability of that choice, it la one the
Consticutlon allows States to make. Not only does the Courts novel constitutional
fight lack any constitutional foundation; the reasoning the Court uses to construct
this right lacks any logical stopping point* If as the court supposes, the
Constitution bars courts frota insisting that person remain in prison when their
convictions or sentences are later deemed UNCON£lTFJrtO:'J4L, why can courts let stand
by a judgment that wrongly decided any unconstitutional question?
Petitioner clearly Is serving an unoonstitutibnal sentence, he was under the
exclusive jurisdiction of the juvenile court. The historical statute and laws of
1995; MCL7124.1 - 7124.32 (See Pat. 4pp. K) The society has already deem Petitioner
to be a juvenile and should had been, treated as one.
Pre-da ting Miller and Montgomery was sat upon the realm of developing science
after 2012 the developing science has become facts that ft is Unconstitutional to
sentence a juvenile to life without parole without first giving him a Miller hearing*
Petitioner was a juvenile at the time of his offense and any reasonable jurist would
agree that the 8th amendment has been violated and Petitioner is serving a Cruel
and Unusable sentence, also that Miller and Montgomery should be extended and
afforded to Petitioner • That in Miller .and Montgomery by Petitioner being a juvenile
under the exclusive jurisdiction of the juvenile oouct (See Pet. AFP H) ha should
should ba given a meaningful opportunity for rehabilitation and parole.
Now this Is the same right that the Petitioner is requesting. Had Petitioner
gotten convicted after 2012 wider Michigan statutes and laws he would had to go
through a Miller Hearing In order to be sentence to life without parole.
The remedy that Petitioner Is seeking is to ba given the same opportunity as
hla other juvenile counterparts which is a Miller Hearing. Petitioner .hope that
this Court considers the fact that Petitioners case is a case of "First tpsesaW*.
CONCLUSION
Accordingly, the petition for a writ of certiorari should be granted and the
Michigan courts should be ordered to vacate Petitioner's conviction and resantanoa
Petitioner. Petitioner Is under a unconstitutional sentence.

M

SWMARY OP ARGUMENT
''THIS IS A CASE OF FIST DEGRESSION", The skate of Michigan did not afford
Petitioner a Miller Hearing under Miller v. Alabama and Montgomery v. Louisiana.
Petitioner is serving a life sentence without the parole. In 1993 Petitioner was
16 years old and was committed to the juvenile court for some juvenile offenses
until his 21st birthday. (See Pet. APP. T ) In February 1995 Petitioner was 18 years
old when placed chi juvenile probation under the Youthful Trailing Act MCL 712A.18
(See Pet. APP. K ) On November 20th, 1995 Petitioner was 19 years old and was
apprehended for a homicide and an attempted homicide, while still under the exclusive
jurisdiction of the juvenile court. Petitioner was bound over as an adult but once
realized that he was still a juvenile (See Pet. APP. A ) which violated Petitioner
14th Amendment and becoming jurisdictional. Petitioner was taken back In front of
his juvenile judge Dalton A. Roberson (See Pet. APP. A ) to request proper waiver
to general court. The Historical Laws and Statues of 1995: MCL 712A.4 (4)
In 2012 this Court has ruled that it Is unconstitutional to sentence a juvenile
at the tine of his/her offense to life without the possibility of parole without
first being given a Miller Hearing. In 2012 the state of Michigan disagreed with
Miller v. Alabama being applied to those juveniles at the time of pre-Miller
Since the time of Miller and Montgomery science has proven that those juveniles
who were 18 and 19 years old should be extended to those in Miller situation because
of the brain science that has been evolving. (See In re Lambert, 2018 U.S. App.
Lexis 25332, People v. House, 2015 IL App. (1st) 110580, People v. williams, 291
IL App. 3d 1125, Cruz v. United States, 2018 U.S. Dist. Lexis 52924; also Cruz v.
United States, transcripts with Dr. Laurence Steinberg (Sept. 13, 2017)
There are also other readings of support that agrees Miller and Montgomery should
be extended to Petitioner. See 85 Fordhara L. Rev 641, 88 Temp. L. Rev 769, NRA of
Am. v. Bureau of Alcohol, 700 F.3d 185, Essay: The Legal Construction of Adolescence,
29 Hofstra L. Rev.547, 68 Temp. L. Rev. 1897, 91 Nw. U. L. Rev 453, 55 U. Cin. L.
Rev. 943, 82 J. Crim, L. & Criminology 360, and 37 Miss. C. L. Rev 264.

12-

ARGUMENT
II. Petitioner Is entitled to a Milieu Hearing because Petitioner was a "juvenile"
at the tine of his offense, he Is serving life without the possibility of parole
which fs an Iftioonstltutlonal sentence under the 8th Amendment entitling hi® to relief
required in both Miller v. Alabama and Montgomery v. Louisiana.
''this IS A CASE OF FIRST IMPRESSION". In 1995 when Petitioner committed a homicide
and an attempted homicide he was under the exclusive jurisdiction of the juvenile
court. Before Petitioner was waived over to general court under the Hfstorfcal Laws
and statutes of 1995: MCL 712.4(4) Petitioner was entitled to a juvenile
"dispositional" hearing where counsel ineffectively waived juvenile rights which
prevented him from either remaining in juvenile court or being waived on lesser
included offenses.
I. The Petitioner sentence is Unconstitutional and violates his 8th Amendment
"Cruel and Uhusal Punishment".
This Court has ruled in Miller v. Alabama 567 U.S. 649 that it is
"Unconstitutional" to sentence a juvenile to life without the possibility of parole
and in Montgomery v. Louisiana 136 S.Ct. 718
this Court has ruled that it is retroactive to those juveniles pre-Mi'ller.
Petitioner was a juvenile at the time of his offense on November 10, 1995. (See.
Pet. APP. K ) if the courts determines the sentence is invalid, the Court has
authority to correct the sentence. See U.S. v. Lavoie, supra.

A. New Scientific Evidence supporting the development of the juveniles brain and
function until age 21 years old.
Though Petitioner was 19 years old at the time of his offense he was under the
exclusive jurisdiction of juvenile court under the Historical Laws and Statues of
of 1995 MCL 712A.2. (See Pet. App.
R ) The Supreme Court and The Transformation
of Juvenile Sentencing package that was put together by Elizabeth Scott, Thomas
Grlsso and Laurence Steinberg on page 7: Development research on age differences
in risk-taking is extensive and consistence. Many studies have found that adolescents
and individuals in their early 20's are more likely than either children or somewhat
older adults to engage in risky behavior; most form of risk-taking follow an inverted
U shape curve with age, increasing between childhood and adolescence, peaking in
either mid-or-late adolescence and declining thereafter. In recent years,

I3

psychologists have theorized that the relationship between age and risk-taking is
best understood by considering the contrasting developmental trajectories of
sensation-seeking and inpulse control. Sensation-seeking the tendency to pursue
novel, exciting and rewarding experiences-increase substantially around the time
of puberty and remains high well into the early 20's, when it begins to decline.
Petitioner was already deemed by society to have been a juvenile and was under
the juvenile exclusive jurisdiction at the time of his offense. Furthermore, the
scientific advances that have shaped our society's improved understanding of the
human brain would have been unfathomable to those considering these issues in 1983.
In 1990, President George H.W. Bush launched the "Decade of the Brain" initiative
to "enhance public awareness of benefits to be derived from the brain research".
In the years since Roper, research has constantly shown that such development
actually continues beyond the age of 18. Indeed, the line drawn by the U.S. Supreme
Court no longer fully reflects the state of the science on adolescent development.
While there were findings that pointed to this conclusion prior to 2005, a wide
body of research has since provided us with an expanded understanding of behavioral
and psychological tendencies of 18 to 21 years old. Findings demonstrate that 18
to 21 year olds have a diminished capacity to understand the consequences of their
actions and control their behavior in ways similar to youth under 18. Additionally,
research suggests that late adolescents, like juveniles, are more prone to risk­
taking and that they act more impulsively than older adults in ways that likely
influence their criminal conduct. According to one of the studies conducted by Dr.
Laurence Steinberg, a leading adolescent development expert, 18 to 21 years olds
are not fully mature enough to anticipate future consequences. (Also sue, Luis Noel
Cruz v. United States of America September 13, 2017 in front of the Honorable Janet
C. Hall)
Petitioner points out how other states have accepted 18 and 19 year olds as
juvenile and have extended Miller hearings to these kind of juveniles. Petitioner
was already established as a juvenile at the tine of his offense (See Pet. APP. 7
Science has proven that the Petitioner should be entitled to a Miller hearing.
For example, in 1984, the U.S. Congress passed the National Minimum Drinking
Age Act, which inoentivized states to set their legal age for alcohol purchases
at age 21. (23 U.S.C. sec. 158 (1984). since then, five states (California, Hawaii,
New Jersey, Maine, and Oregon) have also raised the legal age to purchase cigarettes
to age 21. In addition to restrictions on purchases, many car rental companies have

set minimum cental ages at 20 oc 21, with higher cental fees foe individuals under
age 25.
IN the context of child-secving agencies, both the child welfare and education
systems in states across the country now extend their services to individuals through
age 21, recognizing that youth do not reach levels of adult Independence and
responsibility at age 18. (The same as Petitioner being 19 years old but still under
the care and exclusive jurisdiction of the juvenile court) (See Pet. APP. H,K) in
fact, 25 states have extended foster care or state-funded transitional services
to late adolescents through the Fostering Connections to Success and Increasing
Adoptions.
By contrast, numerous fMRI studies show relatively greater activity during
adolescence than In childhood or adulthood in a brain system that is located mainly
in the ventral striatum and ventromedial prefrontal cortex. This system that is
known to have an important role in the processing of emotional and social Information
and in the valuation and prediction of reward and punishment, According to what
has been referred to as a "dual systems model," the heightened responsiveness of
this social-emotional, incentive-processing systems is thought to overwhelm or at
the very least, tax the capacities of the self-regulatory system, compromising
adolescent's abilities to temper strong positive and negative emotions and inclining
them towards sensation-seeking, risk-taking and impulse antisocial acts. Although
It is less well developed a growing literature on the development of the "social
brain," which was presented to the Court in Miller, provides evidence of functional
changes that are consistent with heightened attention to the opinions of others,
which may be linked to adolescent's greater susceptibility to peer influence, one
of the hallmark characteristics of this age group that was highlighted by the Court
in the sentencing opinions.
Petitioner, argues the fact that he spent from the age of 16 to 18 1/2 In a boys
training school for juveniles. (See Pet. APP. H ) amongst his peers and that his
mental development was that of a juvenile, which is why he remained under the
jurisdiction of the juvenile court until a later age. (See. Pet. APP. H )
Petitioner, has shown since his Incarceration that he can be amenable to
treatment, repairable and that he can grow out of an adolescent mind and behavior.
Since been incarcerated for over 24 years Petitioner has only had (6) major
misconduct tickets. So since from the age of 19 years old Petitioner has grown fro
m the adolescent state while maturing In the prison system. Petitioner has

IS

accomplished educational programs, job ready skills, custodial maintenance,
horticulture, landscaping, dog training skills, he has served on the Warden forum
committee, continue to keep a prison work assignment and is currently working as
a housing unit porter.
The remedy that Petitioner is seeking is to be given the same opportunity as
his other juvenile counterparts which is a Miller Hearing. Petitioner hope that
this Court considers the fact that Petitioners case is a case of "First Ipression".
CONCLUSION
Accordingly, the petition for a writ of certiorari should be granted and the
Michigan courts should be ordered to vacate Petitioner's conviction and resentence
Petitioner. Petitioner is under a unconstitutional sentence.

Jermaine D. Hill #252439
Alger Correctional Facility
N6141 Industrial Park Drive
Munising, Michigan; 49862

'!

saacaKr or iwsaMBfg
In 1995 thf3 19 yaas old Petitioner was undas tha exclusive jurisdiction of tha
In 1993 Patitfonas was 16 years old and was amafttad go tha juvanfla court by
judge Dalton 1* Roberson (Saa Pat* \pp. J, K) In 1995 Patitfonas was 19 years old
and still undas tha exclusive jurisdiction of tha juvenile coast until his 21st
birthday* (Saa Pst. 1pp. 3, O) On ifovaafeas 20, 1995 Petitioner was apprehended fos
a hoffticida and a attaaptad honfefda. Whan takan to tha polica station Petitioner
legal guardian os juvenile judga was not contacted* Petitioner was bald fos two
days without any notification to his legal guardians os juvenile judge. (Saa Pat*
App.
S) Pcoaaoutos navas issuad a warrant ondas I4CR 6.900 (6.907). on Movambar
22,1995 a warrant was finally issuad and signed by judge Caatallo (Saa Pat. APP.
3, L) On stovambas 24, Petitioner was bound ovar into adult const without juvanfla
judge consent os knowledge. Seventeen days latas it was realized and Patitfonas
was sent bafose juvanfla judge in juvanfla const fos a wafvas haarfng into adult
court? which had already iiapsoparly takan placs on tha 24th of Kovaobas* (Saa. Pat.
APP* a, J, K,) Patitfonas counsal was ineffective by waiving this hearing where
miscarriage of justice had taking plans. Counsal should never had wafvas this
hearing* Petitioner juvanfla waiver haasfng undas tha Historical Statutes of 1995
&*2E# 7121*4(4) allows fos Patitfonas to allocate any witoassas, to datasafna tha
bast intasast of tha juvanfla and public Whether juvanfla should ba charged in adult
court os not* It this haasfng Patitfonas had tha ability to psasarva his
jurisdictional defect claim. Counsal fall balow tha linas of effectiveness.
Strickland v* Washington 466 US 663*

if

ARGUMENT
Petitioner is entitled to Relief Foam Judgment because both Juvenile Court and
Circuit Count judge was fh error of "juvenile" rights unden the Historical Laws
and Statutes of 1995s MCL 712A.4(4), MCL 769.1 and ICR 6.900 by not conducting a
Dispositional Hearing, to see if the best interest of the juvenfle and public to
keep juvenfle In the juvenfle count cm bo waive junfsdfctfon bo general count.
In 1995 when Petftfonen was 19 yeans old he was apprehended for a homfcfde and
an attempted homfcfde. Petftfonen was entftled to a juvenfle dfsposftfonal hearing
to see ff the best interest of the juvenfle was to keep him fnsfde juvenfle count
on to wafver junfsdfctfon (MCL 712A.4(4)(a-f), also at that time Petftfonen had
opportunity to allocute any wftnesses and to have changes reduced to lessen included
offenses before bounding oven. Much like suggested fn Miller v. Alabama 567 U.S.
649 ft fs to see ff the juvenfle can be redeemable so a (6) stage cni'benfa fs given.
A. Jurisdiction
Petitioner's counsel was ineffective by advising Petitioner to waive this juvenile
hearing; stating that they had already bound you over, therefore this hearing fs
acting only as a formality. Petitioner was fn fact given a bound hearing and bound
over as an adult before he was taken fn front of juvenfle judge Dalton A. Roberson
(See Pet. APP. ft ) who had exclusive jurisdiction over Petitioner under the
Historical Statutes and Laws of 1995; MCL 712A.2a, MCL 712A.18d, MCL 769.1
After
Petitioner was already bound over as an adult seventeen days later then he was
scheduled for a juvenile hearing in front of his juvenile judge. This violated
Petitioner's 14th amendment and the historical laws and statutes of 1995 MGR
6.907(A), MCL 712A.2c, MCL 712A.4,3, MCL 712A.11 (1 )(2). Making Petitioners argument
and claim jurisdictional in nature (jurisdictional defect).
When Petitioner was waived by the district court before sending him in front
of his juvenile judge as required MCR 6.907. The general court lacked both subjectmatter and personal jurisdiction due to the Government's failure to accord due
process in the juvenile criminal matter, that fell within the "automatic waiver
procedure" voider MCL 600.606. The due process failure implicates not only a
constitutional concern,
but a
jurisdictional
question as
well.
The
unconstitutionality of the government failures in question have been sufficiently
determined by both the United States and Michigan Supreme Courts, that being, its
constitutional duties end requirements.

B. Relevant Facts and Legal Analyses
The fifth, Sixth, Eight and Fourteenth Amendments to the United States
Constitution (and Michigan constitution counterparts) guarantee due process of law,
fair trials, protections against cruel and or unusual punishment and those
protections are applicable to the States. Basic to any criminal trial, proceedings
and sentence (punishment), for a juvenile offender whether? or not an automatic waiver
is involved, the carefully prescribed (mandated) due process procedures must be
accorded to the juvenile offender and strictly complied with by the government
without exception.
The primary subject of the habeas corpus action in this case, involves the
government's failure to accord due process in the juvenile criminal matter, that
fell within the "automatic waiver procedure" under MCL 600.606, and its
jurisdictional Implications for non-compliance.
Jurisdictional challenges may be brought at any time, see U.S. v. Cotton, 535
US 625, 632 (202). See also Virgin Islands v. Williams, 892 F2d 305, 309 (3rd Cir.
1989), citing Bender v. Williamsport Area Sch Dist ♦ I 475 US 534, 541 (1986).
Although, the Automatic Waiver Rule appears to negate the requirement of taking
the child (juvenile) offender to the family division of probate court that rule
does not relieve the prosecutor of the "Arraignment on complaint and warrant and
Preliminary Examination" within 24 hours of arrest (or authorization of the Complaint
and Warrant by the prosecuting attorney), see MCR 6.907(A)(1) and (2).
More importantly, the "prosecuting attorney" must make good faith effort to notify
the parent of the juvenile of the arraignment. MUR 6.907(A). As the record reveals
Petitioner was a juvenile (still under tracking) When taken into custody for the
instant offense on November 20, 1995. (See Pet. APP.
) Although Petitioner was
19 years of age, he was still under juvenile supervision and care). See Pet. APP.
On October 1, 1988 the Michigan Legislature created and passed a bill and package
which dealt with a new hybrid cases. The new law gave the prosecutor(s) much greater
discretion in decidihg whether to charge a juvenile as an adult. A prosecutor could
proceed with an "automatic", traditional", or a "permissive" waiver, by authorizing
an complaint and warrant against a juvenile 15 or 16 years of age or those under
it's jurisdiction who is accused of any one of nine enumerated felonies punishable
by life imprisonment.
In addition to the new legislation, the Michigan Supreme Court has promulgated
a set of proposed rules and has directed that the courts are "urged and encouraged"
to use the preposed rules as guidelines until they were withdrawn or adopted by

n

the court.
Since the prosecutor has been given much greater discretion under the new
legislation, there will be wide variations in charging policies from county to
county. For example, the Wayne County Prosecutor would screen first and second-degree
imirrdQi7 cases for consideration for a warrant. For the other counties, prosecutors
may use the automatic waiver provisions in all cases involving the enumerated
felonies. Defense counsel will therefore have to become familiar with local policy
and practice. WAIVER DISPOSITION HEARING: The new legislation has not substantially
altered the dispositional phase of a "permissive", "traditional" and "automatic"
waiver hearing. The prosecuting attorney has the burden of establishing by a
preponderance of the evidence that the best interests of the juvenile and the public
would be served by waiver. MCR 5.950(B)(2)(b). While a waiver disposition is
analogous to criminal sentencing, it is still a much more extensive evidentiary
hearing, including a limited right of confrontation.
In MCL 712A.4(4), modifies Schumacher somewhat, and permits the juvenile court
to give waiver criterion whatever weight is "appropriate to the circumstances."
Nonetheless, there is still the presumption against waiver which the prosecutor
must overcome by a preponderance of the evidence, and the primary inquiry of the
waiver dispositional hearing continues to be Whether the juvenile is amendable to
treatment as a juvenile. Schumacher and Dunbar remain the leading Michigan cases.
Not only has the age of juvenile court jurisdiction has been extended from 19
to 21 MCL 712A.2a; the juvenile court can retain jurisdiction over a juvenile
corani'tted as a state ward and placed in a juvenile. Despite massive prison
construction, the adult correctional system is more crowed than ever. (See Pet.
This mean s few, if any educational or vocational services are possible. Rather
than preparing prisoners for future release, corrections officials are consumed
with problems of overcrowding. Programs that do exist are "end-loaded", that is,
au?e not available to a prisoner until near the end of his/her sentence. In the
meantime, prisoners are simply warehoused. So on the other hand, the juvenile justice
system will continue to be focused on rehabilitation from entry through release.
In addition to the services that already exist, the Department of Social Services
planned new programs pursuant to this bill legislation had passed. Including longterm, physically secure residential facilities. Since the juvenile system has or
will develop programs with a greater likelihood for rehabilitation in secure
settings, the community and the juvenile will be better served by keeping the
juvenile system in order to effectively conduct either a dispositional hearing in

adult court after an automatic, traditional or permissive waiver hearing in juvenile
or family court.
At the time of Petitioner's offense these Michigan Statutes and Laws all applied
to him. The Historical laws of 1995.
C. Ineffective assistance of Trial Counsel
Petitioner also contends that he was not afforded effective assistance of trial
counsel on the grounds that (1) his trial counsel failed to object to any
jurisdictional error; (2) counsel failed to object to the prosecutions conduct;
(3) counsel failed to conduct a proper investigation and present exculpatory
witnesses; (4) failed to investigate the background of the prosecution's witness
and (5) failed to properly instruct Petitioner on waiving this vital juvenile
hearing.
With respect to claims of ineffective assistance of counsel. Petitioner bears
the burden of overcoming the strong presumption of effective assistance of counsel
and must show that counsel's performance fell below an objective standard of
reasonableness and deprived him/her of a fair trial. People v. Effinger, 212 Mich
App 67, 69; 536 NW2d 809 (1995)
To establish that trial counsel was ineffective, a defendant must show a
reasonable probability that, but for counsel's error, the result of the proceedings
would have been different. In addition, a defendant's counsel cannot be deemed
Ineffective for failing to make a futile motion. People v. Fike, 228 Mich App 178,
People v. Jordan, 275 Mich App 659.
In Petitioner's case there is a jurisdictional defect that took place by not
notifying his juvenile judge Dalton A. Roberson until nineteen days later to properly
get waiver of the juvenile under MCL 712A.4(4).
D. Ineffective Assistance of Appellate Counsel
Petitioner's final contention is that he was deprived of effective appellate
counsel for failing to raise all of the above purported errors and for falling to
raise the issue of Ineffective assistance of trial counsel. The test for Ineffective
assistance of appellate counsel is the same as that applicable to a claim of
ineffective assistance of trail counsel. People v. Pratt, 254 Mich APp 425. Thus,
defendant must show that appellate counsel's decisions fell below an objective
standard of reasonableness and prejudiced his appeal. In addition, the representation
of appellate counsel cannot be deemed ineffective for failing to raise Indisputable
Issues since an attorney is not required to make meritless arguments. People v.
Riley (After remand), 468 Mich 135.

0.1

CONCLUSION
Accordingly, the petition for a writ of certiorari should be granted and the
Michigan courts should be ordered to vacate Peti'toner's conviction and release
Petitioner or grant him a juvenile disposition hearing, this Court should grant
the petition for writ of certiorari.

Jermaine D. Hill #252439
Alger Correctional Facility
N6141 Industrial Park Drive
Munising, Michigan; 49862

'L
i.

